     LOAN CLASSIFICATIONS AND 

OVERPAYMENTS ON SECONDARY MARKET 

              LOANS 




            ~eport!Vulnber:B-09
         Date Issued: March 26, 2008
             U.S. Small Business Administration
             Office Inspector General                                      Memorandum
     To: 	   Grady Hedgespeth                                                                          Date:   March 26, 2008
             Director, Office of Financial Assistance

             Jennifer Main 

             ChiefFinancial Officer 

             IS/ original signed 

  From : 	   Debra S. Ritt 

             Assistant Inspector General for Auditing 


Subject: 	   Loan Classifications and Overpayments on Sec.ondary Market Loans
             Report No. 8-09

             This report presents the results of our audit of loan classifications and
             overpayments on secondary market loans. SBA' s secondary market program was
             created to encourage small business lending by allowing lenders to sell the
             guaranteed portion of their 7(a) loans to investors. Under the program, lenders
             retain servicing rights on the sold portion of their loans, and SBA' s guarantee to
             the investors is backed by the full faith and credit of the United States. SBA
             reports that in most years, 40 to 50 percent of 7(a) loans are sold on the secondary
             market.

             During a prior audit of loan information reporting by lenders, we identified errors
             in loan classifications and excessive interest accruals on secondary market loans
             that merited audit attention. To determine the extent of this problem, we initiated
             an audit ofloan classifications and overpayments. The objectives of the audit
             were to determine whether SBA ( 1) classified secondary market loans
             appropriately, (2) purchased loans from the secondary market in a timely manner,
             and (3) pursued lenders for overpayments it made to secondary market investors.

             To determine whether SBA classified secondary market loans appropriately, we
             obtained a June 30, 2007, report of defaulted secondary market loans identified by
             SBA' s Fiscal and Transfer Agent, Colson Services Corp . This report included
                   1
             2,756 loans for which interest was 60 days or more past due, of which 1,034 2



             1
                 This number refl ects onl y those loans th at were reported to be in regul ar servicing.
                                                                                                                           2


were projected to be classified as current. SBA' s share of the remaining principal
balance of the 2,756 loans totaled approximately $624 million. We reviewed a
statistical sample of 64 of the loans for which SBA' s share of the principal totaled
approximately $14 million. We compared status information reported by Colson
with loan history information maintained by SBA as of June 30, 2007. A loan was
considered to be in default if principal and/or interest payments were 60 days or
more past due, regardless of whether a prior deferment of the loan had occurred.
A deferment is a lender-approved postponement of any loan payment that is due.

To determine whether SBA purchased guarantees from the secondary market in a
timely manner, we reviewed 2,030 loans that were purchased by SBA off the
secondary market between October 1, 2005 , and March 31 , 2007. SBA' s purchase
amount totaled approximately $503 million. We analyzed loan data in SBA' s
Guaranty Purchase Tracking System and the Electronic Loan Information
Processing System. To determine whether SBA pursued lenders for overpayments
it made to secondary market investors, we reviewed entries made to SBA' s
General Ledger Account entitled, Due SEA for Overpayment Made to Secondary
Participant, for the 2,030 loans purchased between October 1, 2005 , and March
31 , 2007.

During the audit, we interviewed officials from Colson Services Corp. and SBA' s
Office of Financial Assistance, the National Guaranty Purchase Center and Office
of the Chief Infonnation Officer. The audit was conducted from April 2007 to
November 2007 in accordance with Government Auditing Standards prescribed by
the Comptroller General of the United States.

BACKGROUND

The Small Business Secondary Market Improvement Act of 1984 (P.L. 98-352)
authorizes lenders to sell the guaranteed portion of their 7(a) loans to investors to
provide lenders with greater liquidity and to expand the availability of commercial
credit to small businesses. Loans can be sold individually or in pools. When the
loans are sold, lenders retain responsibility for servicing the loans and earn a
servicing fee on the guaranteed portions of the loans that are sold.

When a lender sells the guaranteed portion of a 7(a) loan, it enters into a
Secondary Participation Guaranty Agreement (SBA Form 1086) with SBA and
the investor. On a monthly basis, each lender is required to submit to Colson a
Guaranty Loan Status and Remittance Report (SBA Form 1502) for all SBA loans

2
    We only reviewed loan class ificati ons fo r th e 64 loans in our sample. Based on our sample resul ts, we proj ected the
    number of current loans on th e June 30, 2007, default report to be I ,034. For more information on this projecti on.
    see Appendi x I.                                                                             ·
                                                                                      3


in its portfolio. The 1502 report identifies when the next installment is due and
what the interest paid to date is for each loan reported. For sold loans, the lender
pays Colson the guaranteed portion of a borrower' s loan payment, net of its
servicing fee. Colson then processes the payment, passing it on to the investor, net
of SBA' s and Colson ' s servicing fees.

Based on the time difference between the next installment due date and the month
end date of the lender' s 1502 report, Colson assigns each loan in regular servicing
a status code. The code indicates whether the loan is:

   •   current or less than 30 days past due (code 1);
   •   30 to 60 days past due (code 2); or 

   •   over 60 days past due (code 3). 


For loans with principal or principal and interest deferments, the loan is classified
in deferred status (code 4) and the next installment due date is reported as the date
when regular payments are to resume. SBA' s Loan Accounting System is updated
electronically on a monthly basis to reflect these classifications. SBA uses the
classifications to assess portfolio risk, score lender performance ratings, develop
financial reports and perform various other analyses.

Colson also prepares a monthly default report that is based on the interest paid to
date. The default report, which is provided to SBA on or before the last business
day of the month, lists the secondary market loans for which interest is 60 days or
more past due. Under the 1086 agreement, SBA is required to contact the lenders
for all loans on Colson' s default report within 5 business days of receipt of the
report. SBA is also required to contact lenders when a borrower has failed to pay
within 60 days the full amount of any missed principal and interest payment.
SBA, in consultation with the lender, will decide on an appropriate remedial
action, such as a deferment, or will determine whether the lender will be offered
the option to purchase the guaranteed portion of the loan from the investor. A
decision is to be made within 10 business days after SBA' s first contact with the
lender.

If the lender is offered the option to purchase the guarantee and declines, SBA will
purchase the loan from the secondary market. SBA is required to give the lender
and Colson written notice of its intent to purchase, and within 5 business days of
such notice, the lender and Colson are required to provide SBA with transcripts of
all loan financial transactions. SBA will reconcile the transcripts, but if it cannot
do so, will pay the guarantee based on Colson' s transcript. Investors are entitled
to all accrued interest up to the day of purchase, net of servicing fees charged by
the lender, SBA and Colson, along with the guaranteed principal balance.
                                                                                    4


Adjustments to the purchase are charged against the lender' s servicing fee, and
any shortfall is billed to the lender as an accounts receivable.

RESULTS IN BRIEF

The audit disclosed that 10 of the 24 current loans reviewed, or 42 percent, were
not classified appropriately in SBA' s Loan Accounting System. These loans were
classified as current when principal and/or interest were more than 60 days past
due. In some instances loans were classified as current, but either no principal was
ever paid on the loan or a principal payment had not been made for 1 year. Based
on our sample results, we estimate that $161 million, or 54 percent of the projected
$297 million in current loans reported on Colson' s June 30, 2007 default report
was actually 60 days or more past due.

The audit also disclosed that SBA did not purchase guarantees from the secondary
market in a timely manner, and as a result, incurred $7.4 million of additional
interest expense. Of the 2,030 guarantees purchased by SBA from the secondary
market between October 1, 2005 , and March 31 , 2007, we identified 1,198, or 59
percent, that had accrued interest in excess of 120 days. We determined that if
SBA had not allowed lenders to accrue interest beyond 120 days, it could have
saved $6.1 million of interest expense. Further, an additional $1 .3 million could
have been saved if SBA had processed the guarantees in a timelier manner.

The audit found that SBA generally pursued lenders for overpayments it made to
secondary market investors. Overpayments occurred when a lender failed to
submit a borrower's loan payment to Colson, and Colson, on behalf of SBA,
covered the payment to the investor. We identified instances, however, where
SBA had overbilled lenders by $1 .9 million on loans where transcripts either were
not provided or were incomplete. SBA also did not account for all of these
billings appropriately. Consequently, SBA will need to adjust its accounts
receivable and may need to repay lenders for inappropriate billings.

Finally, we identified approximately $1.1 million of income that SBA reported
from ongoing guarantee fees it never collected from lenders for loans purchased
between October 1, 2005 , and March 31 , 2007. Not only did SBA neglect to bill
lenders for these fees , but it paid Colson the uncollected amount. When Colson
refunded these fees to SBA, the Agency erroneously reported it as income.

To address the deficiencies identified by the audit, SBA should monitor and
classify loans properly, limit interest accrual to 120 days on loans it purchases
from the secondary market, adjust its accounts to eliminate the inappropriate
billings and collections, conduct post purchase reviews on the loans with
                                                                                 5


inappropriate billings, and seek payment from lenders for accrued ongoing
guarantee fees .

Management agreed with recommendations 9 and 10, partially agreed with
recommendations 5, 6 and 7, disagreed with recommendations 1, 3, 4 and 11 and
neither agreed nor disagreed with recommendation 8. Management also indicated
it had already taken the proposed action for recommendation 2. Management
stated that our recommendation to revise SBA' s loan classification procedures
may have been based on incorrect information. It also stated that the principal
payment transaction is not a recommended means to classify loan currency.
Further, management stated that re-amortization after a single deferment period is
unnecessary and burdensome to the lenders. Management's comments and our
corresponding response are discussed in more detail in the Agency Comments and
Office of Inspector General Response sections of the report. Management's
response is presented in its entirety in Appendix II. We have requested that
management identify additional actions it will take to address recommendations 2,
5, 6, and 7, and will pursue resolution of recommendations 1, 3, 4, 8, and 11
through the audit resolution process.

RESULTS

An Estimated $161 Million in Secondary Market Loans Was Reported as
Current Even Though Loan Payments Were Delinquent

The audit disclosed that the loan classification in SBA' s Loan Accounting System
for the 2,756 loans on Colson ' s June 30, 2007 default report was generally
accurate with the exception of those loans that were designated as current. SBA
classified a projected 1,034 of the 2,756 loans listed on the default report as
current. Of the 64 loans we reviewed, 24 were classified as current. However, we
found that 10 of the 24 had delinquent loan payments. Based on the sample
results, we project that 431 of the 2,756 loans were misclassified. These loans
were valued at an estimated $161 million. Details on the misclassified loans are
summarized in Tab 1e 1.
                                                                                                                6


                      Table 1. Misclassified Secondary Market Loans as of June 30, 2007

                                   Outstanding         Days Since           Days Since
                                                                                              Reason For
           #       Loan No.         Guarantee         Last Principal       Last Interest
                                                                                            Misclassification
                                     Balance            Payment              Payment
            I    Exemption     2        $86,553                  604                 114    Rolling due date
           2     Exemption     2       $102,549                  213                  88    Prior deferment
           3     Exemption     2       $462,375                  298                 101    Prior deferment
           4     Exemption     2       $569,600                  302                 138    Prior deferment
           5     Exemption     2     $1,086,983                  263                 131    Rolling due date
           6     Exemption     2       $559,23 8                 365                  67    Rolling_ due date
           7     Exemption     2        $59,400                  386                  73    Rolling due date
           8     Exemption     2       $592,860                  364                  63    Rolling due date
           9     Exemption     2        $10,063                  194                 194    Rolling due date
           10    Exemption     2        $78,80 I                 141                 141    Prior deferment
                 Total               $3,608,422
         Source: SBA's Guarantee Loan History Reports


We found that SBA 's reliance on the next installment due dates reported by
lenders was the major reason why loans were inaccurately classified. SBA
assesses the currency of loans based on the next installment due date that is
reported by lenders. This is not an effective measure of a loan' s currency because
in some cases the date is based on the last payment, regardless of whether it
covered any of the principal that was owed. This is a particular problem for loans
that have been deferred for 3 months or more where the lender has not re­
amortized the note and payments following the deferment must be applied to prior
interest before principal can be paid down. For example, on one loan with a
$569,600 3 outstanding principal balance, the borrower was playing catch up after a
5-month deferment period, but was never able to make enough payments to bring
interest current. Consequently, none of the borrower's payments after the
deferment period had been applied against the principal owed on the loan, and
interest was still 4 months in arrears as of Colson's June 30, 2007, default report.
The lender kept moving the next installment due date every time an interest-only
payment was made. Because the next installment due date reported on the June
30, 2007, default report was within 30 days of the report end date, this loan was
classified as current even though the borrower had not paid down any of the
principal in 6 months.

Another reason why the next installment due date should not be relied upon for
classifying the status of loans is because lenders can roll the date forward at will
(referred to as a rolling due date) without approval from SBA. In fact, it is in the
lenders' best interest to alter these dates to show loans in their portfolio as being
current as the loan currency rate is an important component of SBA's evaluation
of their portfolio risk.

3
    This amount reflects SBA · s guaranteed portion of the outstanding principal balance.
                                                                                     7


We identified six loans where lenders had inappropriately changed the next
installment due date. On one of the loans, the lender reported the next installment
due date as December 20, 2007, even though the borrower had not made a loan
payment of either principal or interest since December 2006. While the lender did
not report the loan in deferment, advancing the next installment due date had the
same effect as a deferment.

In addition to relying on the next installment due date, we found that SBA was not
monitoring the monthly default reports submitted by Colson to determine which
loans were delinquent. For example, had it reviewed this report, SBA would have
seen that the two loans described previously were not current in principal
payments and should not have been classified as current. SBA also does not have
a mechanism to identify loans with no principal reduction for 60 days or more.

Loans with deferments, including unjustified installment date advances, which are
notre-amortized, pose additional risk to SBA. If a borrower is unable to bring
interest current and post-deferment payments are never applied to principal, SBA
will be responsible for a higher principal amount at purchase. If the loan is re­
amortized after the deferment period, however, a portion of the post-deferment
payments will be applied to principal, and SBA' s loss will be reduced. To
compensate for the additional risk, loans that are not re-amortized after a
deferment should not be classified as current.

The standard commercial lending practice is to put loans in a non-accrual status
when principal or interest payments are 90 days in arrears and collateral is
insufficient to cover the debt. Loans that are in a non-accrual status are considered
to be non-performing and are not classified as current. Unfortunately, this
standard cannot be applied to SBA loans because SBA does not have a non­
accrual policy. Furthermore, loans sold in pools on the secondary market cannot
be placed in a non-accrual status as investors are guaranteed all accrued interest up
to the date of purchase. Nevertheless, for illustrative purposes, if the commercial
lending standard was applied to the 10 loans in Table 1, it is possible that all 10 of
the loans would have been considered non-performing and not classified as
current.

When loans are not properly classified as being delinquent, SBA will
underestimate portfolio risk, and inappropriately rate lenders' performance. Other
portfolio analyses may also be affected. Further, failure to identify problem loans
precludes SBA from controlling its interest expenses by making timely purchases.

Consequently, SBA will need to revise its classification procedures to ensure that
loan currency is not solely based on the next installment due date, and that data
from monthly default reports and principal payment information is also
                                                                                      8


considered. Additionally, lenders should be directed to comply with the
requirements for reporting next installment due dates on 1502 reports to ensure
dates are only rolled forward when a full loan payment is received, and left as past
due when a payment is missed or only a partial payment is made. A mechanism
should be developed to identify loans with no principal reduction for 60 days or
more. These loans should not be classified as current and monitored regularly in
accordance with the 1086 agreement. Lenders should also be required to re­
amortize loans after each deferment period. We also believe monitoring the loans
reported on the monthly default reports is an important control activity that SBA
should engage in to verify whether lenders are accurately reporting the status of
their loans.

Guarantees Were Not Purchased Timely from the Secondary Market

SOP 50 50 4 states that because delays can significantly increase the amount of
interest SBA has to pay, loan servicing and liquidation personnel in the field
offices and servicing centers must act expeditiously on guarantee purchase actions.
For loans SBA purchases directly from the secondary market, it must pay
investors all accrued interest up to the date of purchase.

Despite the requirement to expeditiously process guarantee purchases, we found
that 59 percent, or 1,198, ofthe 2,030 loans reviewed were not processed timely,
resulting in $7.4 million of excess interest payments. For these loans, an average
of 240 days of interest accrued before SBA purchased the guarantees. Most of this
delay was attributed to lenders not promptly demanding purchases and SBA not
taking action to purchase when timely demands were not received. Lenders
allowed 194 days of interest on average to accrue before making demands for
purchase. Waiting for lenders to request purchase from the secondary market is
not an adequate control since it is generally in the lenders' best interest to accrue
servicing fees until the loan is purchased.

To limit excess interest accrual, SBA should monitor Colson' s default reports as
required under the 1086 agreement. These reports provide SBA with the data
necessary to identify problem loans. When questioned about the lack of
monitoring, SBA stated it has been unable to monitor these reports on a regular
basis due to a staffing shortage at the Herndon National Guaranty Purchase
Center. For example, as of November 2007, the Center had 22 vacancies. These
staffing shortages have restricted the Center's ability to work with the lenders on
remedial actions and to pursue purchase of the guarantees in a timely manner.

Further, once purchase demands were made, SBA was not always prompt in
purchasing the loans from the secondary market. SBA' s processing time averaged
46 days. However, SBA procedures indicate the process should take no more than
                                                                                                            9


30 days. Purchases did not occur timely because purchase staff was spending
excessive time awaiting receipt of lender transcripts and other information in an
attempt to reconcile the transcripts prior to purchase. When lenders cannot
provide transcripts, SBA procedures instruct that transcripts from Colson should
be used to facilitate timely purchase. However, we found that SBA officials were
not using transcripts from Colson appropriately. In some cases, officials waited as
much as 189 days to receive transcripts or other information from lenders.
Additionally, as discussed above, inadequate staffing at the Herndon Center
prevented timely purchases.

To hold lenders accountable for making timely purchase demands, SBA should
modify the 1086 agreement with lenders to require them to request purchase when
interest is 120 days past due. Doing so would also be consistent with interest
limits imposed on loans that SBA purchases directly from lenders. If after the
agreements are modified, lenders continue to allow interest to accrue in excess of
120 days, SBA should seek reimbursement from the lenders for the excess interest.

To expedite the purchase process and reduce excess interest accrual attributable to
the Agency, SBA should purchase guarantees within 30 days of the lender' s
demand and use Colson' s transcript when the lender' s transcript is not submitted
or is incomplete.

During the audit, SBA acknowledged the Center's inability to monitor Colson' s
default reports and stated that the servicing centers would take a more active role.
SBA also agreed that it could modify the 1086 agreement to require lenders to
request guarantee purchase when interest is 120 days past due.

SBA Generally Pursued Lenders for Overpayments to Secondary Market
Investors but Improperly Billed Lenders for $1.9 Million in Purchased
Guarantees

When a lender does not forward to Colson a borrower's monthly loan payment for
               4
a pooled loan, Colson, acting on behalf of SBA, still pays the investor its share of
the payment to ensure the investor is kept whole. When SBA purchases loans
from the secondary market, it sends Colson the outstanding principal balance on
the guaranteed portion of the loan as reported on Colson' s transcript plus all
accrued interest to date. In some cases, this results in SBA overpaying Colson
because Colson' s report of the loan's outstanding principal balance will be
overstated if the lenders have not submitted all borrower payments to Colson as
required. When this happens, in effect, SBA has paid the investor an amount that


4
    Loans are pooled together an d packaged as securities for sale to investors in th e secondary market.
                                                                                  10


should have been paid by the lender. When SBA identifies an overpayment, it
establishes an accounts receivable and the amount is billed to the lender.

The audit disclosed that SBA properly established receivables when overpayments
to investors were made and generally collected amounts owed in a timely manner.
However, we identified 15 loans where SBA had inappropriately billed lenders for
$1.9 million in SBA guarantees because the lenders had either not provided or
provided incomplete transcripts of financial transactions associated with the loans.
SBA' s normal practice is to obtain these transcripts before it purchases the loans
to ensure they reconcile with Colson' s records. When transcripts are not provided
or cannot be reconciled, SBA' s procedures require that purchase be made based on
Colson' s transcript and that reconciliation occur post purchase.

While we found that SBA purchased the 15 loans based on Colson's transcripts, it
inappropriately billed the lender for either the entire guaranteed amount or the
interest portion of the guarantee, which in effect, constituted a denial or repair of
the guarantees. SBA procedures do not authorize employees to bill lenders for the
guarantee portion of loans solely due to the lenders' failure to submit complete
transcripts. Of the 15 loans, 11 did not have transcripts and 4 had incomplete
transcripts.

The $1.9 million billed to lenders was erroneously added to the Agency ' s accounts
receivable, overstating the balance in this account during two financial reporting
periods-fiscal years 2006 and 2007. As of September 30, 2007, approximately
$30,000 of the accounts receivable remained on the Agency's financial statements.
This amount reflects $956,000 in collections and a $912,000 adjustment to correct
a portion of the overbillings. SBA will need to make the appropriate adjustments
to eliminate the remaining $30,000, and repay lenders the $956,000 it collected
erroneously unless SBA determines through post purchase reviews that the
guarantees should be repaired or denied based on lender deficiencies in
originating, closing, servicing, or liquidating the loans.

SBA Did Not Collect $1.1 Million of Ongoing Guarantee Fees from Lenders

On every guaranteed loan, SBA charges lenders an ongoing guarantee fee. The
fee is collected monthly throughout the life of the loan. Upon loan default,
however, the fees are not paid and continue to accrue up until the time the loan is
purchased. Consequently, SBA must seek payment of those fees from the lender.

The audit disclosed that not only did SBA neglect to bill the lender for ongoing
guarantee fees the Agency accrued after loan default, but it also added the amount
of its unpaid ongoing guarantee fees to the total purchase payment it wired to
Colson. In effect, SBA paid Colson the amount that the lender owed SBA. When
                                                                                      11


Colson received the purchase payment, it refunded SBA' s ongoing guarantee fee
portion back to SBA. When SBA did not receive payment, it should have
deducted what the lender owed from the loan servicing fee that SBA was going to
pay the lender at the time of purchase. We also found that when SBA received its
erroneous payment back from Colson, it inappropriately recorded the fees as
earned income in the "guarantee fees earned ' account. As a result, SBA claimed
approximately $1.1 million of income on its fiscal year 2006 and 2007 financial
statements that it did not collect.

SBA should discontinue its practice of including in the purchase payments the
amount of its ongoing guarantee fees. Instead, SBA should reduce the servicing
fees owed the lender at the time of purchase by the amount of the ongoing
guarantee fees owed SBA from the lender. When we brought this issue to the
attention of SBA officials during the audit, they expressed surprise that they were
reporting the uncollected fees as income.

RECOMMENDATIONS

We recommend that the Director, Office of Financial Assistance:

1. 	 Revise its procedures for classifying loans in the Loan Accounting System to
     ensure that loan currency is not solely based on the next installment due date,
     and that data from monthly default reports and principal payment information
     is also considered.

2. 	 Take additional actions to ensure lenders comply with the requirements for
     reporting next installment due dates on 1502 reports to ensure dates are (1)
     only rolled forward when a full loan payment is received, and (2) left as past
     due if a payment is missed or only a partial payment is made.

3. 	 Develop a mechanism to identify loans with no principal reduction for 60 days
     or more. These loans should not be classified as current and monitored
     regularly in accordance with the 1086 agreement.

4. 	 Require lenders to re-amortize the SBA note after each deferment period.

5. 	 Ensure that SBA is in compliance with the 1086 agreement by actively
     monitoring the Fiscal and Transfer Agent's monthly default reports, adhering
     to all requirements, and taking appropriate action on the reported loans.

6. 	 Modify the 1086 agreement to require lenders to request guarantee purchase
     when interest is 120 days or more days past due and seek reimbursement from
                                                                                      12


   lenders for interest accrued in excess of 120 days on loans SBA purchases
   directly from the secondary market.

7. 	 Ensure that guarantees are purchased within 30 days of the lender' s demand
     and that the Fiscal and Transfer Agent's transcript is used when the lender' s
     transcript is not submitted or is incomplete.

8. 	 Conduct post purchase reviews of the 15 loans with inappropriate billings to
     determine if the $956,000 of collections should be refunded to the lenders or if
     recoveries should be sought due to lender deficiencies.

9. 	 Discontinue the practice of including the amount of SBA ' s ongoing guarantee
     fees in the purchase payment to the Fiscal and Transfer Agent.

10. Reduce the servicing fees owed the lender at the time of purchase by the
    amount of ongoing guarantee fees owed SBA from the lender and bill the
    lenders for any shortfalls.

We recommend that the Chief Financial Officer:

11. Make the appropriate adjustments to the Agency's accounting records to
    eliminate the $30,000 of accounts receivable and any portion of the $956,000
    collected from lenders that SBA determines should be refunded.

AGENCY COMMENTS

The Agency provided written comments on a draft of this report. The full text of
these comments, which are summarized below, can be found in Appendix II.
Management agreed with recommendations 9 and 10, partially agreed with
recommendations 5, 6 and 7, and disagreed with recommendations 1, 3, 4 and 11.
Finally, management indicated it had already taken the proposed action for
recommendation 2, and neither agreed nor disagreed with recommendation 8.

Management did not agree with recommendation 1 to revise its classification
procedures to ensure that loan currency is not solely based on the next installment
due date and that data from monthly default reports and principal payment
information is also considered. Management stated that this recommendation may
have been based on incorrect information because loan classification procedures
involved in identifying loan currency are not solely based on the next installment
due date, as the interest paid to date is also considered. Management included an
excerpt from the " 1502 field description," which showed that loan status is
reported as current if the interest paid to date is less than 31 days from the month
ending date. Management also stated that the principal payment transaction is not
                                                                                   13


a recommended method to classify loan currency, since a full payment will not
reduce the principal balance in situations where the borrower may have missed a
previous payment, been granted a deferment by the lender, or was significantly
late in making the scheduled payment. Management considers a loan to be current
if a full payment is received in the month in which it is due regardless of its impact
on the principal balance.

Management disagreed with the need for recommendation 2, stating that it has
already been directing lenders to comply with all 1502 reporting requirements,
including next installment due dates and loan status indicators.

Management disagreed with recommendation 3 to develop a mechanism to
identify loans with no principal reduction for 60 days or more. Management
reiterated its position provided in response to recommendation 1 of not using
principal payment transactions as a means to classify loan currency.

Management disagreed with recommendation 4 to require lenders to re-amortize
the SBA note after each deferment period. Management stated that re­
amortization after a single 90-day deferment would not be necessary, explaining
that re-amortizing a loan after a deferment would be time consuming and
burdensome to the lenders. Management also stated that for loans sold in the
secondary market, any and all modifications to the loan must receive the prior
written approval from the secondary market investors.

Management partially agreed with recommendation 5 to ensure that SBA is in
compliance with the 1086 agreement by actively monitoring the Fiscal and
Transfer Agent's (FTA) monthly default reports, adhering to all requirements, and
taking appropriate action on the reported loans. However, management did not
agree to follow up on loans reported on the FTA' s default report that are 60 days
past due, as many loans consistently pay late and following up on them would be
an inefficient use of time and resources.

Management partially agreed with recommendation 6 to modify the 1086
agreement to require lenders to request guarantee purchase when interest is 120
days or more past due and to seek reimbursement from lenders for interest accrued
in excess of 120 days on loans SBA purchases directly from the secondary market.
Management agreed that it could modify the 1086 agreement to place the burden
of initiating the purchase process with the lenders; however, this would only solve
the problem for loans sold after the 1086 agreement modification is made. Also,
management stated it should bill the lender for excess interest only if the delay in
purchase was caused by the lender. Further, based on the new policy presented in
response to recommendation 5 of monitoring only those loans that are 90 days or
more delinquent, management stated that purchasing over 120 days of interest
                                                                                  14


would not be unusual. Furthermore, management stated that the interest purchase
would also be substantially higher if the lender granted a 90-day defennent.

Management partially agreed with recommendation 7. It stated it would use the
PTA' s transcript to expedite the purchase process. Management, however, did not
state whether it agreed that guarantees should be purchased within 30 days of the
lender' s demand.

Management did not indicate whether it agreed or disagreed with recommendation
8 to conduct post purchase reviews of the 15 loans with inappropriate billings to
determine if the $956,000 of collections should be refunded to the lenders or if
recoveries should be sought due to lender deficiencies.

Management agreed with recommendation 9 to discontinue the practice of
including SBA' s ongoing guarantee fee in the purchase payment to the FTA,
contingent on its determination of the feasibility of implementing the
recommendation as changes in the current processes will need to be explored.
Management proposed that the FTA may be able to report the fee as a separate
line item on its transcript of account. The fee could then be deducted from the
purchase disbursement, but modifications to the Guaranty Purchase Tracking
System (GPTS) may be required.

Management agreed with recommendation 10 to reduce the servicing fees owed
the lender at the time of purchase by the amount of ongoing guarantee fees owed
SBA from the lender and bill the lenders for any shortfalls. Management stated,
however, that it would also explore the feasibility of implementing this
recommendation. Management stated that it may be possible for the FTA to
calculate the fees, but GPTS modifications would have to be made to properly
account for the fees in the purchase transaction and SBA' s loan accounting
system.

Management disagreed with recommendation 11 to make adjustments to the
Agency's accounting records to eliminate the $30,000 of accounts receivable and
any portion of the $956,000 collected from lenders that SBA determines should be
refunded. Management indicated it would not make any adjustments to the
accounting records because the Office of the Chief Financial Officer reviewed the
accounting records and supporting documentation for the 15 loans identified, and
stated it appears that the purchase and subsequent transactions on the loans were
properly recorded. Management, however, stated that as a result of our audit, the
National Guaranty Purchase Center now uses the PTA' s transcripts to record the
purchases rather than setting up receivables.
                                                                                  15


OFFICE OF INSPECTOR GENERAL RESPONSE

Management' s comments were not fully responsive to the recommendations. We
are requesting that management identify additional actions it will take to address
recommendations 2, 5, 6, and 7, and will pursue resolution of recommendations 1,
3, 4, 8, and 11 through the audit resolution process.

The excerpt from the " 1502 field description" provided in response to
recommendation 1 does not describe how loans are classified in SBA' s Loan
Accounting System (LAS), which is the basis for the recommendation. We have
revised the report language and recommendation 1 to clarify that procedures for
classifying loans in LAS need to be revised. Although the FTA's default report is
prepared based on the interest paid to date, when theFTA electronically transmits
the loan infonnation to SBA, via the Office of the Chief Information Officer
(OCIO), the next installment due date is used to officially classify the loan in LAS.
Further, while the procedures state that the interest paid to date could be used if
the next installment due date is not provided, this did not occur for any of the
loans in our statistical sample.

Although management stated that it has already been directing lenders to comply
with all 1502 reporting requirements, our audit determined that lenders
inappropriately rolled next installment due dates forward without approval from
SBA. As a result, the lenders are not complying with the reporting requirements
even though SBA has reminded them of the requirements. Therefore, we have
revised recommendation 2 to recommend that SBA take additional actions to
ensure that lenders are not rolling forward next installment due dates.

Management's position in response to recommendation 3, that the principal
payment transaction is not a recommended means to classify loan currency, is not
consistent with industry practices. As discussed in our report, loans with no
principal reduction for 90 days or more generally would not be classified as
current by commercial lending institutions. Furthermore, management's position
is not in accordance with the 1086 agreement which requires SBA to contact
lenders when a borrower has failed to pay within 60 days the full amount of any
missed principal and interest payment. Lastly, management's position is not in
line with SBA' s definition of default and guidance for when a purchase request
can be made. The earliest uncured payment default is the date of the earliest
failure by the borrower to pay a regular installment of principal and/or interest
when due (emphasis added). Additionally, a lender can request purchase of a loan
if the borrower is in default on any installment for more than 60 calendar days and
the default has not been cured. If a borrower makes interest only payments, they
have not "cured" the principal payment amount due. Although it is common for a
full payment from the borrower not to reduce the principal balance because of a
                                                                                  16


previously missed payment, approved deferment, or significantly late payments, it
is not prudent for such loans to be classified as current as these situations are
indications of problems.

Management's response to recommendation 4 that re-amortizing would be
unnecessary and burdensome for lenders is unfounded and contrary to what the
Deputy Associate Administrator for Capital Access proposed as a solution. It is
unclear why the creation of an allonge, or amendment, to the original note and
execution by the lender and borrower would be overly burdensome to the lender.
Furthermore, as 90 percent of loans sold on the secondary market are sold in
pools, secondary market investor approval is not required for loan modifications,
such as deferments or re-amortizations, unless they extend beyond the maturity
date of the pool. We are also puzzled why management did not agree with the
recommendation as the proposed action was suggested by the Deputy Associate
Administrator for Capital Access at the exit conference as a solution to the
classification issue discussed above. If loans were re-amortized after deferment
periods, a portion of subsequent payments would be applied to principal and the
loan could then be appropriately classified as current.

Management's comments on recommendation 5 are responsive to our
recommendation and we believe the monitoring of loans that are 90 days past due
is a reasonable solution to the issues discussed in our audit report. However, as
the 1086 agreement currently requires monitoring of loans that are 60 days or
more past due, it will need to be modified to reflect the change in policy and close
out our recommendation.

We believe management' s comments are not fully responsive to recommendation
6. We agree that modification of the 1086 agreement to place the burden of
initiating the purchase process on lenders would only affect loans sold after this
policy is implemented. However, we do not agree that SBA should only bill the
lender for excess interest on loans it purchases directly from the secondary market
if the delay is caused by the lender. SBA' s policies should be consistent for all
loans. Lenders who purchase their loans from the secondary market themselves or
do not sell their loans on the secondary market are now limited to 120 days of
interest even if they have granted a deferment. Therefore, the same policy should
apply to secondary market loans that are purchased by SBA. SBA ' s revised policy
of monitoring only those loans that are 90 days delinquent should not be an excuse
to allow lenders to accrue more than 120 days of interest. Whether or not SBA
has contacted a lender regarding a loan' s delinquency, the lender should be aware
of it internally and know that a purchase request may be necessary.

Management' s response to recommendation 7 was incomplete. While it agreed
that the FTA' s transcript should be used to expedite the purchase process and
                                                                                   17


reduce accrued interest payable, management did not comment on whether or not
it would ensure that guarantees are purchased within 30 days of the lender' s
demand. Therefore, management's comments were not fully responsive to the
recommendation.

Management's comments did not adequately address recommendation 8.
Management indicated that post purchase reviews on the 15 loans we identified
with inappropriate billings may not be necessary. It stated that the purchase and
subsequent transactions on the loans were appropriately recorded and that SBA
has revised its procedures to use the FTA' s transcript to record the purchase rather
than setting up receivables as it did for these 15 loans. SBA' s procedures,
however, already required SBA employees to use the FTA' s transcript to record
the purchase and never authorized employees to bill lenders and establish
receivables for the guarantee portion of loans solely due to the lenders ' failure to
submit complete transcripts. Therefore, we disagree that the purchase and
subsequent transactions were appropriately recorded for the 15 loans and we
continue to support our position that post purchase reviews need to be completed
on these loans to determine if collections should be refunded or recoveries should
be sought.

Management' s proposed actions were not fully responsive to recommendations 9
and 10. Due to the inappropriate accounting resulting from the current procedure
of including the amount of SBA' s ongoing guarantee fee in the purchase payment
to the FTA and the failure to collect accrued ongoing guarantee fees from the
lenders at purchase, the proposed actions or other alternative actions must be taken
timely rather than simply explored.

Management's response to recommendation 11 that it appears the purchase and
subsequent transactions were appropriately recorded for the 15 loans we identified
with inappropriate billings is incorrect. As discussed above, it was never the
Center' s procedure to bill lenders and establish receivables for the guarantee
portion of loans solely due to the lenders ' failure to submit complete transcripts.
Therefore, the accounts receivable established for these loans and subsequent
collections from lenders may need to be adjusted based on the results of the post
purchase reviews that should be performed in response to recommendation 8.

ACTIONS REQUIRED

We are requesting that the Director, Office of Financial Assistance, respond with 

additional actions planned for recommendations 2, 5, 6, 7, 9 and 10. 


We appreciate the courtesies and cooperation of the Small Business 

Administration during this audit. If you have any questions concerning this report, 

                                                                                 18


please call me at (202) 205-7203 or Robert Hultberg, Director, Credit Programs
Group, at (202) 205- [Exemption 2]
                                                                                                                             19 



APPENDIX I. 	 STATISTICAL SAMPLING PROCESS AND PROJECTION
              RESULTS FOR LOAN CLASSIFICATIONS

To determine whether SBA classified secondary market loans appropriately, we obtained a
June 30, 2007 report of defaulted secondary market loans identified by SBA' s Fiscal and
Transfer Agent, Colson Services Corp. This report included 2,756 5 loans for which interest
was 60 days or more past due. From this population universe, we selected a statistical
sample of 64 loans to evaluate SBA's loan classification process. In statistical sampling, the
projected estimates in the population universe have a measurable precision or sampling
error. The precision is a measure of the expected difference between the value found in the
sample and the value of the same characteristics that would have been found if a 100 percent
review had been completed using the same techniques.

Sampling precision is indicated by ranges, or confidence intervals, that have upper and
lower limits and a certain confidence level. Calculating at a 90 percent confidence level
means the chances are 9 out of 10 that, if we reviewed all of the loans in the total
population, the resulting values would be between the lower and upper limits, with the
population point estimates being the most likely amounts.

Using the Defense Contract Audit Agency' s 'EZ Quant' software program, we determined
based on the universe size, a confidence level of 90 percent and a I 0 percent error rate, that
a sample size of 64 loans was required. We used IDEA (Interactive Data Extraction and
Analysis) software to select the sample records from the universe.

We calculated the following population point estimates and the related lower and upper
limits using Defense Contract Audit Agency' s 'EZ Quant' software program' s ratio method
at a 90 percent confidence level.

                                               Occurrences in               Population
                                                 Sample of                    Point
                 Value                           64 Loans                    Estimate            Lower Limit            Uj)_()_er Limit
      Loans with Classification
                                                        10                       431                    243                  689
      Errors
      $Value of Loans with
                                                  $3 ,608,422             $I 6I ,279,216          $68,732,691           $253,825,742
      Classification Errors6
      Number of Current
                                                        24                      I,034                   758                 1,33 4
      Loans in Universe
      $Value of Current Loans
                                                  $6,645 ,45 7            $297,020,262           $198,022,253           $396,018,27 I
      in Universe 7

5
  This number reflects only those loans that were reported to be in regular servicing. 

6
  This amount refl ects SBA ·s share of th e remai nin g principal balance of the loans with classification errors. 

7
  This amount reflects SBA ·s share of the remai ning principal balance of the current loans in the uni verse. 

                                                                                         20 

 APPENDIX II. AGENCY COMMENTS 


  DATE:         March 3, 2008
     TO:        Debra S. Ritt, Assistant Inspector General, Auditing Division
  FROM:         Grady Hedgespeth, Director, OFA
                Jennifer E. Main, CFO
SUBJECT:        Responses to Audit Recommendations on Project No. 7020
                Draft Audit Report on Loan Classifications and Overpayments on
                Secondary Market Loans

 We appreciate the opportunity to jointly provide our responses to your recommendations on
 this draft audit, which are set forth below.

 We recommend that the Director, Office of Financial Assistance:
 1. 	 Revise its classification procedures to ensure that loan currency is not solely based on
      the next installment due date, and that data from monthly default reports and
      principal payment information is also considered.

 OF A RESPONSE : The OIG recommendation may be based on incorrect information. Loan
 classification procedures involved in identifying loan currency are not solely based on the next
 installment due date, but on the next installment due date as well as the interest paid-to-date.
 Set forth below is an excerpt from the " 1502 field description" that is available on the FTA's
 website.

                3. Next Installment Due Date: The date the borrower is scheduled to make its
                next payment. Based on the status of the loan, the next installment due date is
                reported as follows:

                       • Current - date of next scheduled payment due
                       • Past Due- date of the first missed scheduled payment
                       • Deferred (status 4)- date borrower is to resume making payments
                       • In Liquidation (status 5) - leave blank
                       • Paid-in-Full (status 6) - leave blank
                       • Transferred (status 7) - leave blank
                       • Purchased by SBA (status 8)- leave blank
                       • Fully Undisbursed (status 9)- leave blank

                Special situations: Newly disbursed and large principal balance loans (where
                payments are made late), and loans in work-out (without a deferment) - if the
                full payment amount as called for in the note is
                made but applied solely to interest, report next installment due date as next
                payment date. If full payment amount as called for in the note is not made,
                report next installment due date as date of first missed full payment. Next
                installment due date advances to the next payment date once the full
                payment amount is received.
                                                                                          21
               4. Status: Leave blank if the loan is current, 31-60 days past due or over 60
               days past due as of the month ending date. For all other statuses, refer to the
               status box at the bottom of the SBA Form 1502 and enter the appropriate status
               code number.

                      • Current - interest paid-to-date is less than 31 days from the month
                      ending date. For example, loan's interest is paid to 3/2/YY for the period
                      ending 3/31/YY. Leave Status Code column blank.
                      • 31-60 Days Past Due- interest paid-to-date is 31-60 days from the
                      month ending date. For example, loan's interest is paid to 2112/YY for
                      the month ending 3/31/YY. Leave Status Code column blank.
                      • Over 60 Days Past Due - interest paid-to-date is over 60 days from the
                      month ending date. For example, loan's interest is paid to 1/3/YY for the
                      month ending 3/31/YY. Leave Status Code column
                      blank.
                      • Status 4: Deferred- principal or principal and interest (P&I) payments
                      have been deferred. For example, loan's P& I payments are deferred and
                      are to resume on 5/ 1/YY. Report Next Installment
                      Due Date as 511 /YY, Status Code 4, Interest To Date and Guaranteed
                      Portion Closing Balance as of last payment received.

The above excerpt clearly shows how the loan status is classified. In addition, the monthly
default report from the FTA is based on interest paid-to-date. The principal payment
transaction is not a recommended method to classify loan currency since it is a commonplace
occurrence for a full payment from the borrower not to reduce the principal balance in
situations where the borrower may have missed a previous payment, had been granted a
deferment by the lender or was significantly late in making the scheduled payment. SBA
considers a loan to be current if a full payment is received in the month in which it is due
regardless of its impact on the principal balance.

2. 	 Direct lenders to comply with the requirements for reporting next installment due
     dates on 1502 reports to ensure dates are (1) only rolled forward when a full loan
     payment is received, and (2) left as past due if a payment is missed or only a partial
     payment is made.

OF A RESPONSE: This is the current practice as explained in Section 3 above from the " 1502
field description" (special situations). OFA and FTA have been directing lenders to comply
with all 1502 reporting requirements, including next installment due dates and loan status
indicators.

3. Develop a mechanism to identify loans with no principal reduction for 60 days or
   more. These loans should not be classified as current and monitored regularly in
   accordance with the 1086 agreement.

OFA RESPONSE: As expressed in OF A's response to OIG' s first recommendation, the
principal payment transaction is not a recommended means to classify loan currency since it is
very common for a full payment from the borrower not to reduce the principal balance. This is
the case in situations such as when the borrower has missed a payment, was on an approved
                                                                                           22
deferment or was significantly late in making the scheduled payment, especially early in a long
term loan where the initial principal payment is very small. As mentioned previously, SBA
considers a loan to be current if a full payment is received in the month it is due regardless of
the payment's impact on the principal balance.

4. Require lenders to re-amortize the SBA note after each deferment period.

OF A RESPONSE: Re-amortizations would not be necessary after a single 90-day deferment.
Also, each re-amortization of the loan must be documented by an amendment or allonge to the
original note and must be executed by the borrower and lender. Another issue is that for loans
sold in the secondary market, any and all modifications to the loan terms must receive prior
written approval from the secondary market investors. This will be a major obstacle that will
be time consuming and burdensome to the lenders.

5. 	 Ensure that SBA is in compliance with the 1086 agreement by actively monitoring
     Colson's monthly default reports, adhering to all requirements, and taking
     appropriate action on the reported loans.

OFA RESPONSE: We agree that Colson's default reports should be monitored but that the
centers should only follow up with lenders on loans that are more than 90 days past due since
many loans consistently pay late (60-90 days), and following up on them would be an
inefficient use of time and resources.

6. Modify the 1086 agreement to require lenders to request guarantee purchase when
   interest is 120 days or more days past due and seek reimbursement from lenders for
   interest accrued in excess of 120 days on loans it purchases directly from the
   secondary market.

OF A RESPONSE: Per the 1086 agreement it is the responsibility of SBA to follow up with the
lender on delinquent loans. SBA should bill the lender for excess interest purchased only if a
delay in purchase was caused by the lender. Purchase of over 120 days of interest is not
unusual since when a loan is 90 days delinquent (the time when SBA would contact the lender),
there is already 120 days of accrued interest that would need to be purchased. Assuming a 30­
day purchase time period, the purchase would inc! ude 180 days interest. If the lender has
granted a 90-day deferment (which can be done without SBNFTA approval), the interest
purchased would be substantially higher.

SBA could modify the 1086 agreement to place the burden of initiating the purchase process
with lenders; however, this would only solve the program with loans sold after the modification
and would not affect the outstanding portfolio of 7(a) loans. Each 1086 is a separate contract
and such a modification would not be applicable to previously executed 1086s. In addition,
SBA presently encourages lenders to purchase the guaranty directly from the secondary market
holder and subsequently request SBA to honor the guaranty when recovery is completed (if the
loan is not paid in full). This procedure results in lesser aggregate purchase amounts, and the
subsequent guaranty purchases handled by SBA would be through the normal pre-purchase
review process rather than a post-purchase review.
                                                                                     23
7. 	 Ensure that guarantees are purchased within 30 days of the lender's demand and that
     Colson's transcript is used when the lender's transcript is not submitted or is
     incomplete.

OFA RESPONSE: We agree that Colson's transcript should be used to expedite the purchase
process and reduce accrued interest payable. Any differences with the lender's transcript could
be reconciled after purchase. This is the practice currently employed by the National Guaranty
Purchase Center.

8. 	 Conduct post purchase reviews of the 15 loans with inappropriate billings to determine
     if the $956,000 of collections should be refunded to the lenders or if recoveries should
     be sought due to lender deficiencies.

OFA RESPONSE: OCFO ' s Denver Finance Center has reviewed accounting records in ELIPS
along with supporting documentation for the 15 loans identified, and it appears that the
purchase and subsequent transactions on the loans have been appropriately recorded. The
National Guaranty Purchase Center has recently revised its procedures on secondary market
loans so as not to account for purchases in the manner identified by OIG, and now uses the
FTA' s transcript to record the purchase rather than setting up receivables.

9. 	 Discontinue the practice of including the amount of SBA's ongoing guarantee fees in
     the purchase payment to Colson.

OF A RESPONSE: OF A will determine the feasibility of implementing this recommendation.
However, changes in current processes will need to be explored. The FTA may be able to
report the amount of this fee separately on the transcript of account provided in connection with
the purchase of a secondary market loan. The amount would then be deducted from the
purchase disbursement. Modifications to GPTS may be required.

10. Reduce the servicing fees owed the lender at the time of purchase by the amount of
    ongoing guarantee fees owed SBA from the lender and bill the lenders for any
    shortfalls.

OF A RESPONSE: OFA will also explore the feasibility of implementing this recommendation
to reduce any lender servicing fees by the amount of the unpaid annual service fee owed by the
lender. It may be possible for the FTA to calculate the amount of the fees, with GPTS
modifications made to properly account for the fees in the purchase transaction and SBA's loan
accounting system.

We recommend that the Chief Financial Officer:
11. 	Make the appropriate adjustments to the Agency's accounting records to eliminate
    the $30,000 of accounts receivable and any portion of the $956,000 collected from
    lenders that SBA determines should be refunded.

CFO RESPONSE: Please see response to Recommendation 8.
